                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-293




       Community Based Outpatient

            Clinic Reviews

                   at

          VA Central California

          Health Care System

              Fresno, CA





August 21, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                           CBOC Reviews at VA Central California HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       EM       emergency management
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Health Care System
                       MH       Mental Health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                           CBOC Reviews at VA Central California HCS



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics.............................................................................................               7

  C&P ........................................................................................................................    8

  EOC and EM...........................................................................................................           9


Appendixes
  A. VISN 21 Director Comments .............................................................................                     11

  B. VA Central California HCS Director Comments.................................................                                12

  C. OIG Contact and Staff Acknowledgments .........................................................                             14

  D. Report Distribution.............................................................................................            15





VA OIG Office of Healthcare Inspections
                                                            CBOC Reviews at VA Central California HCS



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Tulare CBOC during the week of
June 17, 2013.

The review covered the following topic areas:

    WH

	   Vaccinations

	   C&P

	   EOC

	   EM

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and EM onsite inspections were only conducted at the randomly
selected CBOC (see Table 1).

     VISN       Facility                       CBOC Name               Location
                VA Central California
       21                                      Tulare                  Tulare, CA
                HCS
                                          Table 1. Site Inspected


Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians document all required tetanus and pneumococcal vaccination
   administration elements and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                                            i
                                             CBOC Reviews at VA Central California HCS


Comments
The VISN and Facility Directors concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 11–13, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                               JOHN D. DAIGH, JR., M.D.
                                             Assistant Inspector General for
                                                  Healthcare Inspections




VA OIG Office of Healthcare Inspections                                             ii
                                                               CBOC Reviews at VA Central California HCS



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   EM

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                   CBOC Reviews at VA Central California HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and EM onsite inspections were only conducted at the randomly
selected CBOC. One CBOC was randomly selected from the 56 sampled parent
facilities, with sampling probabilities proportional to the number of CBOCs eligible to be
inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                   2
                                                                                                              CBOC Reviews at VA Central California HCS



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                 CBOC Size8
                                                                                                       FY 20127            FY 20127
                                                      Merced                        Urban               2,461               11,463           Mid-Size
                                                   (Merced, CA)
                                                      Oakhurst                      Rural                1,141               7,080             Small
    21   VA Central California HCS
                                                  (Oakhurst, CA)
                                                       Tulare                       Rural                4,566              17,086           Mid-Size
                                                    (Tulare, CA)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                 CBOC Reviews at VA Central California HCS



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 21 patients who received a cervical cancer screening at VA Central
California HCS’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 21 EHRs of patients who had normal cervical cancer
screening results and determined that 10 patients were not notified within the required
14 days from the date the pathology report became available.




9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.



VA OIG Office of Healthcare Inspections                                                                        4
                                                                CBOC Reviews at VA Central California HCS


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although
vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element marked
as NC needed improvement. Details regarding the finding follow the table.

         NC                                       Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                            Table 4. Vaccinations

Documentation of Vaccinations.        Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.13 We reviewed the EHRs of 35 patients who received a
tetanus vaccine administration at the parent facility or its associated CBOCs and did not
find documentation of all the required information related to tetanus vaccine
administration in 4 of the EHRs. We reviewed the EHRs of 44 patients who received a
pneumococcal vaccine administration at the parent facility or its associated CBOCs and


12
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
13
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                                      5
                                              CBOC Reviews at VA Central California HCS


did not find documentation of all the required information related to pneumococcal
vaccine administration in 24 of the EHRs.

Recommendation

2. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccine administration elements and that compliance is
monitored.




VA OIG Office of Healthcare Inspections                                              6
                                                            CBOC Reviews at VA Central California HCS



                                 Onsite Reviews

                         Results and Recommendations

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                                          Tulare
     VISN                                                                   21
     Parent Facility                                           VA Central California HCS
     Types of Providers                                            Nurse Practitioner
                                                                Primary Care Physician
                                                                      Psychiatrist
                                                                     Psychologist
     Number of MH Uniques, FY 2012                                       613
     Number of MH Visits, FY 2012                                          2,466
     MH Services Onsite                                                     Yes
     Specialty Care Services Onsite                                         WH
     Ancillary Services Provided Onsite                         Electrocardiogram
                                                                    Laboratory
                                                                 Onsite Pharmacy
     Tele-Health Services                                          Dermatology
                                                                        MH
                                                                      MOVE14
                                                                     Neurology
                                                                  Retinal Imaging
                                                         Care Coordination Home Telehealth
                                         Table 5. Characteristics




14
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                            7
                                                      CBOC Reviews at VA Central California HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.15 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




15
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      8
                                                         CBOC Reviews at VA Central California HCS


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOC was compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.



VA OIG Office of Healthcare Inspections                                                         9
                                                      CBOC Reviews at VA Central California HCS


          NC                              Areas Reviewed (continued)
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles).
                      The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC

The CBOC was compliant with the review areas; therefore, we made no
recommendations.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.16 Table 8 shows the areas
reviewed for this topic.

          NC                                      Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




16
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                     10
                                                     CBOC Reviews at VA Central California HCS
                                                                                  Appendix A

                           VISN 21 Director Comments


               Department of
               Veterans Affairs                               Memorandum


       Date:           August 8, 2013

       From:           Director, VISN 21 (10N21)

       Subject:        CBOC Reviews at VA Central California HCS

       To:             Director, 54LA Healthcare Inspections Division (54LA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



                1.	 Thank you for the opportunity for the staff at VA Central
                    California Health Care System to review their draft OIG CBOC
                    report.

                2.	 Attached is the action plan developed by the facility for the two
                    findings that were cited.

                3.	 If you have any questions, please contact Terry Sanders
                    Associate Quality Manager for VISN 21 at (707) 562-8370.




VA OIG Office of Healthcare Inspections                                                    11
                                                       CBOC Reviews at VA Central California HCS
                                                                                    Appendix B

             VA Central California HCS Director Comments



                Department of
                Veterans Affairs                                Memorandum


       Date:              August 5, 2013

       From:              Director, VA Central California HCS (570/00)

       Subject:           CBOC Reviews at VA Central California HCS

       To:                Director, VISN 21 (10N21)

       1.	    I appreciate the opportunity to provide our input to the
              Community Based Outpatient Clinic (CBOC) reviews of our
              health care system which took place during the week of June
              17, 2013.
       2.	    I concur with all the findings and suggested improvement
              actions.

       3.	    On behalf of our health care system, I would like to express my
              thanks to the OIG-CBOC team which reviewed our Community
              Based Outpatient Clinics. We found the team members not
              only fair in their assessments, but very helpful throughout our
              preparatory activities and during the review itself.

       4.	    We appreciate the important feedback we received from this
              review and will use the information to further strengthen our
              administrative and clinical operations.


             Sincerely,




VA OIG Office of Healthcare Inspections                                                      12
                                                  CBOC Reviews at VA Central California HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: September 30, 2013

Facility’s Response:

A performance improvement plan has been put into place to meet the 14-day
notification requirement for normal cervical cancer screening results. The action items
initiated by Women’s Health Department and the Laboratory Service include entering
and monitoring all relevant patient notification information in a secure drive log,
multidisciplinary review (including vendor) and staff training of screening lab process,
extending specimen pick up hours by vendor, and processing results upon availability
instead of holding and batching.

To ensure compliance with 14-day patient notification of normal results, a monthly audit
is being conducted for three consecutive months from July through September 2013
with a target goal of a minimum of 90% compliance each month. Managers will conduct
periodic evaluation of audits and processes.

2. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.

Concur

Target date for completion: September 30, 2013

Facility’s Response:

Changes have been made to our CPRS (electronic record) charting template. Clinical
reminders were modified so that the Vaccine Information Statement (VIS) edition, lot
number, and manufacturer are mandatory fields when documenting administration of
these vaccines.




VA OIG Office of Healthcare Inspections                                                 13
                                                    CBOC Reviews at VA Central California HCS
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Simonette Reyes, RN, BSN, Team Leader
Contributors            Daisy Arugay, MT
                        Matt Frazier, MPH
                        Yoonhee Kim, PharmD
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Keyla Gammarano, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Jackelinne Melendez, MPA, Program Support Assistant
                        Kathleen Shimoda, RN
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                   14
                                                 CBOC Reviews at VA Central California HCS
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 21 (10N21)
Director, VA Central California HCS (570/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Jim Costa, Jared Huffman, Kevin McCarthy,
 Tom McClintock, Devin Nunes, David Valadao


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                15
